<html>
<title> - TERRORISM: GROWING WAHHABI INFLUENCE IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 108-267]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-267

       TERRORISM: GROWING WAHHABI INFLUENCE IN THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2003

                               __________

                          Serial No. J-108-21

                               __________

         Printed for the use of the Committee on the Judiciary



91-326              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
MIKE DeWINE, Ohio                    JOSEPH R. BIDEN, Jr., Delaware
JEFF SESSIONS, Alabama               HERBERT KOHL, Wisconsin
SAXBY CHAMBLISS, Georgia             JOHN EDWARDS, North Carolina
                Stephen Higgins, Majority Chief Counsel
                David Hantman, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kyl, Hon. Jon, a U.S. Senator from the State of Ohio.............     1
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     3

                               WITNESSES

Alexiev, Alex, Senior Fellow, Center for Security Policy, 
  Washington, D.C................................................    14
Aufhauser, David, General Counsel, U.S. Treasury Department, 
  Washington, D.C................................................     7
Mefford, Larry A., Assistant Director, Counterterrorism Division, 
  Federal Bureau of Investigation, Washington, D.C...............     9
Schwartz, Stephen, Senior Fellow, Foundation for the Defense of 
  Democracies, Washington, D.C...................................    16

                         QUESTIONS AND ANSWERS

Responses of the Department of the Treasury to questions 
  submitted by Senators Kennedy, Kyl, and Schumer................    28
Responses of Stephen Schwartz to questions submitted by Senators 
  Kennedy, Schumer, and Kyl......................................    34
Responses of Alex Alexiev to questions submitted by Senators 
  Kennedy, Kyl, and Schumer......................................    51

                       SUBMISSIONS FOR THE RECORD

Alexiev, Alex, Ph.D., Senior Fellow, Center for Security Policy, 
  Washington, D.C., prepared statement...........................    61
Aufhauser, David, General Counsel, U.S. Treasury Department, 
  Washington, D.C., prepared statement...........................    67
Mefford, Larry A., Assistant Director, Counterterrorism Division, 
  Federal Bureau of Investigation, Washington, D.C., prepared 
  statement......................................................    81
Schwartz, Stephen, Senior Fellow, Foundation for the Defense of 
  Democracies, Washington, D.C., prepared statement..............    88

 
       TERRORISM: GROWING WAHHABI INFLUENCE IN THE UNITED STATES

                              ----------                              


                        THURSDAY, JUNE 26, 2003

                              United States Senate,
        Subcommittee on Terrorism, Technology and Homeland 
               Security, of the Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:12 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senators Kyl and Schumer.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                         STATE OF OHIO

    Chairman Kyl. Welcome to this hearing of the Senate 
Judiciary Subcommittee on Terrorism, Technology and Homeland 
Security. Our hearing today is entitled, ``Terrorism: Growing 
Wahhabi Influence in the United States.''
    Let me, first of all, indicate to those in the audience 
that we are engaged in about three different things that are 
directly relevant to this Committee right now.
    First of all, there is a full Committee markup occurring 
right now on the asbestos litigation or legislation, and we are 
all supposed--well, litigation and legislation--we are going to 
be running back and forth to that. We have four votes scheduled 
at 2:40 on the floor of the Senate, and so we will have to 
excuse ourselves for that.
    I apologize to all of you, especially those of you who are 
witnesses here because there will be some disruption in our 
schedule, but we will begin and move forward as much as we can. 
Senator Feinstein will not be able to join us, at least at this 
point, but hopefully will be here later, and some of the other 
members of the Committee are hoping the join us. But what I 
would like to do is get started, make a brief statement, have 
Senator Schumer make a brief statement and then at least begin 
with our first two representatives of our Government, 
representing the first panel.
    We are here today to discuss a vital, if largely 
overlooked, aspect of the terrorist campaign being waged in our 
country, and I think unless we pay closer attention to it and 
understand it, we will not know how to protect ourselves 
against this. Our witnesses today are going to talk about how 
this terrorist campaign is supported in the United States and 
how it has been caused to spread.
    The problem we are looking at today is the State-sponsored 
doctrine and funding of an extremist ideology that provides the 
recruiting grounds, support infrastructure and monetary life 
blood of today's international terrorists. The extremist 
ideology is Wahhabism, a major force behind terrorist groups, 
like al Qaeda, a group that, according to the FBI, and I am 
quoting, is the ``number one terrorist threat to the U.S. 
today.''
    Nearly 22 months have passed since the atrocity of 
September 11th. Since then, many questions have been asked 
about the role in that day's terrible events and in other 
challenges we face in the war against terror of Saudi Arabia 
and its official sect, a separatist, exclusionary and violent 
form of Islam known as Wahhabism.
    It is widely recognized that all of the 19 suicide pilots 
were Wahhabi followers. In addition, 15 of the 19 were Saudi 
subjects. Journalists and experts, as well as spokespeople of 
the world, have said that Wahhabism is the source of the 
overwhelming majority of terrorist atrocities in today's world, 
from Morocco to Indonesia, via Israel, Saudi Arabia, Chechnya.
    In addition, Saudi media sources have identified Wahhabi 
agents from Saudi Arabia as being responsible for terrorist 
attacks on U.S. troops in Iraq. The Washington Post has 
confirmed Wahhabi involvement in attacks against U.S. forces in 
Felugia. To examine the role of Wahhabism and terrorism is not 
to label all Muslims as extremists. Indeed, I want to make this 
point very, very clear. It is the exact opposite. Analyzing 
Wahhabism means identifying the extreme element that, although 
enjoying immense political and financial resources, thanks to 
support by a sector of the Saudi state, seeks to globally 
hijack Islam, one of the world's three great Abrahamic faiths. 
It means understanding who our worst enemies are and how we can 
support the majority of the world's Muslims, ordinary, normal 
people who desire to live in a safe, secure, and stable 
environment, in their own effort to defeat terror. In the end, 
Islamist terror must be defeated to a significant extent within 
Islam by Muslims themselves.
    Based on Government documents, Newsweek magazine reported 
in its recent issue, June 23rd, that al Qaeda, which experts 
have described as a Wahhabi movement, has overhauled its 
approach to penetrating the United States, and I just want to 
quote this one paragraph before I conclude.
    ``To foil the heightened security after 9/11, al Qaeda 
began to rely on operatives who would be harder to detect. They 
recruited U.S. citizens or people with legitimate Western 
passports who could move freely in the United States. They used 
women and family members as support personnel, and they made an 
effort to find African-American Muslims who would be 
sympathetic to Islamic extremism, using mosques, prisons and 
universities throughout the United States.''
    ``According to the documents, the former al Qaeda director 
of Global Operations who was captured in Pakistan last March 
reached deep into the heartland, lining up agents in Baltimore, 
Columbus, Ohio, and Peoria, Illinois. The Feds have discovered 
at least one--'' and this is Khalid Shaikh Mohammed ``--one 
KSM-run cell that could have done grave damage to the United 
States.''
    The extreme nature of Wahhabism is well established. As the 
great scholar of Islam, Bernard Lewis, has noted, ``Saudi oil 
revenues have,'' and I am quoting here, ``allowed the Saudis to 
spread this fanatical, destructive form of Islam all over the 
Muslim World and among the Muslims in the West. Without oil and 
the creation of the Saudi kingdom, Wahhabism would have 
remained a lunatic fringe.''
    Now, some of the testimony that you will hear today will be 
chilling. It will describe a well-organized, foreign-funded 
terrorist support enterprise that is networked across our own 
country, as well as the rest of the world. Today, we will hear 
testimony about Saudi, al Qaeda, and Wahhabi involvement in 
terrorism. In particular, the Department of Treasury will make 
clear that the ultimate goal of terrorist financings is 
destruction and will comment on the involvement of Saudi-based 
entities and individuals in terrorism.
    Representatives of the FBI will testify that the al Qaeda 
network remains the most serious threat to U.S. interests here 
and overseas.
    In addition to the FBI and Treasury, two private 
organizations that have spent a great deal of time wrestling 
with these issues, the Center for Security Policy and the 
Foundation for the Defense of Democracies, will show the link 
between al Qaeda and Wahhabism and will address the struggle 
against terrorist financing and terrorist penetration of our 
country, the origins of Wahhabism, its international ambitions 
and its influence in American Islam.
    I welcome all of you to this hearing today, and now we will 
turn to somebody who has also devoted a great deal of time and 
effort to this war on terror here in the United States, my 
colleague, Chuck Schumer.

  STATEMENT OF HON. CHARLES SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Well, thank you. And I want to thank you, 
Chairman Kyl, for having this very important hearing. This is 
an issue that I have been very interested in, as you have 
mentioned; terrorism, in general, and Wahhabism, in particular, 
for quite a while.
    And the issue we are addressing is very important in our 
effort the protect America from future terrorist attack. We 
have learned that when you ignore it, it gets worse, and so I 
really salute you for having this hearing.
    Now, since the Wahhabi presence in the United States is a 
foreboding one that has potentially harmful and far-reaching 
consequences for our Nation's mosques, schools, prisons and 
even our military, these hearings could not come at a more 
opportune time.
    But before I begin, I want to make one thing absolutely 
clear: Islam is an admirable and peaceful faith that embraces 
tolerance, morality, and charity. As you mentioned, it is one 
of the three great Abrahamic faiths, and the bottom line is 
anyone who misinterprets and says speaking out against an 
extreme faction that advocates violence is speaking out against 
one of the great religions because a few of its adherents seek 
to hijack what that faith is all about, are totally 
misinterpreting and not being American.
    What we do not do as Americans is, and we have learned this 
because of our long history with race and racial problems is, 
take a person and say you are of this faith, you are branded by 
some who might share that faith and distort it, and we are 
against everybody or take action against everybody or 
discriminate against you. I think that is extremely important, 
and we should underline it.
    Now, most of the Muslim world follows the tenets of 
mainstream Muslim of a peaceful, admirable faith, but 
unfortunately the increasingly influential and radical Wahhabi 
ideology distorts this message by preaching hate, violence and 
intolerance, not only toward the Judeo-Christian world, but 
towards moderate Muslim as well, to the rest of the Muslim 
faith.
    Al Qaeda, and the 9/11 terrorists were the products of 
Wahhabism's hateful and intolerant system of belief, and over 
the past year my office has been studying Wahhab activities in 
the United States and around the world and has uncovered 
disturbing information. Wahhabism is an extremist exclusionary 
form of Islam that not only denigrates other faiths, but also 
marginalizes peaceful followers of Islam, like Shia and most 
Sunnis.
    The roots of Wahhabism can be found in Saudi Arabia, where 
the governing regime has made an ugly deal with that Nation's 
radical Muslim clerics. The Saudis give Wahhabis protection and 
support in exchange for Wahhabis promising not to undermine the 
Saudi royal family. This is nothing short of a deal with the 
devil. It is the wrong thing to do, and I would urge, I have 
urged, the Saudi Government to refrain from it because it is 
going to lead to their own undoing, as well as lack of freedom 
for their people, as well as lack of progress for their people.
    The Wahhabis get to preach the hate and extremism that form 
core tenets of Wahhabism without consequence, and more 
importantly, because that still falls under Freedom of Speech. 
It's when you step over the line between advocating something 
verbally, and then doing it, and we have learned that this has 
happened over and over again, the Wahhabis are allowed to 
recruit disciplines who pose a tremendous threat to Americans 
everywhere.
    I have written letter after letter to the Saudi Government 
asking it to denounce the Wahhabi teachings of its madrassas or 
religious schools which preach extremism and stop funding them. 
I am sure everyone will be shocked to hear that thus far I have 
not received any response from them indicating any change in 
policy.
    As the Saudis turned a blind eye, the Wahhabi machine is 
becoming well-financed, politically powerful, difficult to 
prosecute and making dramatic inroads here in the United 
States. Let me give you an example of how Wahhabism has reached 
some degree of havoc in my own backyard in New York State.
    For 20 years, the New York State Department of Corrections 
employed Warith Deen Umar as one of its chaplains, eventually 
appointing him administrative chaplain of the New York 
Department of Correctional Services. A strict believer in 
Wahhabi Islam, Umar was responsible for the hiring and firing 
of all chaplains in the New York State prison system, 
exercising complete control over personnel matters. But last 
year Mr. Umar was banned from ever again entering a New York 
State prison, after he incited prisoners against America, 
specifically preaching to inmates that the 9/11 hijackers 
should be remembered as martyrs.
    Many of the clerics Umar hired during his tenure have 
reportedly echoed his sentiments and sermons before many of New 
York State's 13,000 Muslim inmates, as well as, and this is the 
amazing point, impeding their freedom of religion by denying 
these prisoners access to materials and imams used by more 
moderate forms of Islam. There is even one report when a Sunni 
Muslim prisoner wanted a different chaplain to come in that he 
was beaten because Umar wanted only the Wahhabi faith to be 
appointed as chaplains in the New York State prisons. While it 
is not surprising that Umar would have hired clerics who shared 
his beliefs, I am terribly worried that his minions may have 
exposed members of New York's prison population to his 
extremist and toxic anti-American views.
    More than preaching hate, many of the clerics of Wahhabism 
seem to be actively opposing the U.S. Government. In March, 
Federal prosecutors in New York indicted a chaplain at the 
Auburn correctional facility in New York State for sending 
millions of dollars to organizations in Iraq, in violation of 
U.S. sanctions. He has since pleaded guilty to the offense.
    When my office researched further, we discovered that New 
York's prisons were not the only ones that had been penetrated 
by this kind of Wahhabi zealotry. The U.S. Federal Bureau of 
Prisons uses two groups to select imams who administer to 
Muslim inmates. The Graduate School of Islamic and Social 
Sciences, whose offices are right across the river in Northern 
Virginia and the Islamic Society of Northern America.
    As some of the experts appearing later today can testify, 
both of these groups appear to have disturbing connections to 
Wahhabism and terrorism. The GSISS is under investigation as 
part of U.S. Customs Operation Green Quest, for its possible 
role in helping to funnel $20 million to terrorists throughout 
off-shore financial institutions.
    Meanwhile, a number of ISNA board members appear to have 
checkered pasts. One member, Siraj Wahhaj, was named as an 
unindicted co-conspirator in the WTC, in the World Trade Center 
1993 bombings. Another member, Bassam Osman, was previously the 
director of the Koranic Literary Institute, an Oak Lawn, 
Illinois, organization that had $1.4 million in assets seized 
by the Justice Department in June 1998, on the grounds it was 
used to support HAMAS activities.
    To make matters worse, the GSISS, as well as another 
Wahhabi-influenced organization that is under investigation by 
Green Quest, the American Muslim Foundation, are the sole 
organizations credentialed to advise the Pentagon on who to 
choose as imams to serve the 4,000 patriotic and valiant Muslim 
soldiers in the U.S. military. Again, these two groups are not 
totally Wahhab, but they seem to tolerate those who are Wahhab 
and who step over the line, as these facts have shown, not just 
in preaching violence and hatred, but actually acting upon it, 
and that is the crucial line that we are interested here in, 
not to deal with freedom of speech, but rather to deal with 
actions that cause, aid and abet terrorism.
    While the potential Wahhabi influence in the U.S. Armed 
Forces is not well-documented, these organizations have 
succeeded in ensuring that militant Wahhabism is the only form 
of Islam that is preached to the 12,000 Muslims in Federal 
prisons. That is against the American view of pluralism. If 
there are some in the prisons who want Wahhab ministers, that 
is one thing, but for every Muslim to be forced to have a 
Wahhabi minister, that is wrong, incorrect, and against the 
American way.
    These imams flood the prisons with anti-American, pro-bin 
Laden videos, literature, sermons, and tapes. They destroy 
literature sent to the prisons by more moderate Shia and Sunni 
organizations and prevent imams that follow these traditions 
from speaking to prisoners.
    In addition, non-Wahhabi Muslim prisoners who seek to 
practice their religion often receive threats from Wahhabi 
prisoners who have been instructed by Wahhabi imams. The point 
to prison is to rehabilitate violent prisoners. Instead, the 
Wahhabi influence is inculcating them with the same kind of 
militant ideas that drove the 9/11 hijackers to kill thousands 
of Americans. Mr. Chairman, this is a dangerous situation that 
is essentially being ignored. Because despite the evidence, the 
Federal Bureau of Prisons, and the Pentagon, continue to allow 
these Wahhabi organizations, under Federal terrorist 
investigation, to serve as their sole religious advisers when 
it comes to Islam.
    In an effort to end the practice, I have written to the 
Inspectors General of the Department of Justice and the 
Department of Defense, both of whom responded to tell me they 
are looking into the matter. However, Mr. Chairman, their 
efforts are only a first step towards revealing the full 
picture of the Wahhabi presence in America. And make no 
mistake, we need to develop the full picture if we are to 
prevent these extremist teachings from causing damage, 
terrorism, in this country.
    Now, more than ever, I am convinced that the process to 
counter this hateful ideology begins with Saudi Arabia. The 
Saudis can, and should, stop the terrorist financing that goes 
on within their borders. The Saudis can, and should, track down 
and arrest terrorists that hide out in their countries, but if 
they truly want to stop the violence that led to 9/11 and the 
recent attacks in Riyadh, going beyond simple Band-Aid action, 
the Saudi Government must repudiate the Wahhabi extremism that 
is the source of much of this violence.
    It means stop funding the extremist madrassas, purging the 
hate-filled textbooks that populate Saudi schools, and putting 
an end to the extremist Wahhabi preaching that takes place in 
so many of the mosques in Saudi Arabia. If the Saudis do not 
end the funding and teaching of extremism, the cycle of 
terrorist violence wracking the globe will get worse.
    In addition, our Government, specifically, the Defense 
Department and the Federal Bureau of Prisons, must do a better 
job connecting the dots between the organizations with which 
they do business and Wahhabi activists, eliminating those 
influences and bringing pluralism to the Muslim population in 
the prisons and the army, as it is available to those of the 
other great religions.
    Mr. Chairman, by holding these hearings, you are doing your 
part to show that we have, you are doing what is necessary to 
ensure that we do not look back after the next terrorist attack 
and say, ``Why did we not stop it when we had the chance?'' My 
worry is that the Saudis, and many in this administration, are 
not heeding these warning signs. My worry is, by not heeding 
these signs, we are once again letting those who hate freedom 
recruit disciples in our country that might potentially do us 
harm.
    My fear, Mr. Chairman, in conclusion is that if we do not 
wake up and take action now, those influenced by Wahhabism's 
extremist ideology will harm us in, as of yet, unimaginable 
ways.
    I thank you, again, for holding this hearing.
    Chairman Kyl. Thank you very much, Senator Schumer, for 
that excellent statement, and let me say that it was my 
intention today for this hearing to be a rather broad, 
foundational kind of information gathering. And that we would 
then begin a series of hearings on the recruitment in prisons, 
in mosques, in our own military, and in the other areas that 
you identified there. We will, obviously, be both working with 
the administration, as well as others, on the outside who have 
information that can be brought to bear. So you have really 
laid down a good marker for where we want to go with our future 
hearings.
    We are really fortunate today to have two of the great 
public servants in our administration, David Aufhauser, who is 
the general counsel for the Department of Treasury. He is the 
chief legal adviser and a senior policy adviser to the 
Secretary of Treasury. He serves as Chairman of the National 
Security Committee's Policy Coordinating Committee on Terrorist 
Financing and currently supervises the Office for Terrorist 
Financing and Financial Crimes.
    And also Larry Mefford, the assistant director of the FBI. 
He is in charge of the FBI's Counterterrorism Division. In this 
position, he is responsible for the oversight, direction, and 
coordination of all FBI efforts to combat terrorism against the 
United States.
    As I said, we could not have two better witnesses to advise 
the Committee on what the state of the terrorist threat is in 
the United States today, how the financing of terrorism is 
accomplished here, and I very much appreciate both of you being 
with us today.
    David Aufhauser, let us begin with you. Let us see how much 
we can get in before we have to go. My hope would be that 
perhaps both of you could provide your primary testimony. We 
could then break for the votes and come back. I am sorry to 
interrupt the hearing in that way, but I think that would be 
the best way to proceed.

 STATEMENT OF DAVID AUFHAUSER, GENERAL COUNSEL, DEPARTMENT OF 
                 THE TREASURY, WASHINGTON, D.C.

    Mr. Aufhauser. Thank you, Mr. Chairman, and I thank you for 
the gracious introduction for me and for Larry.
    First, I would like, with your permission, to submit for 
the record the written testimony that I have submitted, and 
just give you a brief overview, and then I certainly welcome 
questions after you hear from Larry.
    When I joined the Department of Treasury 2.5 years ago, I 
was already well aware of the deficit of hope in the Islamic 
world, the most visible symbol of which is the failure to 
resolve the question of Palestine. I had traveled in the Middle 
East on behalf of the World Bank, and my assignments at that 
time were straightforward, but a forensic challenge: Try to 
figure out why rivers of money intended to build dams, to 
irrigate land or to establish an effective stock market in the 
Gulf had failed in their mission with much money left 
unaccounted for.
    When Paul O'Neill asked me to join him at the Treasury 
Department, he gave me a similar and related challenge: Help 
the President make every dollar of development aid count, not 
only because we are stewards of the taxpayers' money, but 
because effective aid is the most promising tonic for hate.
    Despair is hate's crucible. And our ambition at that time, 
and still is, to try to eliminate it, not with any romantic 
notion of changing people's minds, but by changing their 
opportunities in life. No man, no man takes up a gun or a bomb 
and kills who sees a future for his own family.
    Others, however, have sought to exploit despair and to 
teach people to kill. They have financed the venture by 
defiling charitable purpose, and they have found a convenient 
means to do so in the Middle East and particularly in theocracy 
of Saudi Arabia. I want to be clear, as both of you are clear. 
We are not at war with a faith. We are not at war with a sect. 
The war is with those who would seek to compromise faith, with 
those who counterfeit it, and with those who champion the death 
of innocents in the name of the faith.
    And here, the austere and uncompromising, literal, salafist 
Wahhabi view of the teachings of Allah has been wrongly invoked 
by would-be false prophets, like Osama bin Laden, to legitimize 
terror and killing. Still, it is a very important factor to be 
taken into account when discussing terrorist financing. The 
principle of charity is central to Islam, and with unimaginable 
oil wealth has come a commensurate amount of charitable giving 
or zakat that has flowed into prominent Saudi-based NGOs.
    Those NGOs have offices dispersed in the outposts of the 
world, populated by the Islamic diaspora, places where need is 
infinite and where hopelessness preys on a night's sleep.
    There are, moreover, few financial or human resource 
controls on those frontiers, and little sophistication for 
dealing with the diversion of charitable money for violent 
purpose. It is a combustible compound when mixed with religious 
teachings, in thousands of madrassas that condemn pluralism, 
preach intolerance, and mark nonbelievers as an enemy. 
Fundamentalism simply is too easily morphed in such 
circumstances into a mission of hate and terror, and it does 
need to be dealt with.
    Much of our dialogue with the Saudi Government on terrorist 
financing has focused on the misuse of these charitable and 
religious missions and the need to tighten the controls. The 
result has been a far-reaching charities initiative, at least 
the pledge of one, that bars all cross-border giving, absent 
Saudi Government oversight and vetting, the closing of 10 
offices of the largest and most far-reaching Saudi NGO, Al 
Haramain, each office for which we demonstrated to be 
underwriters for terror in either the Balkans, East Africa, 
Indonesia and in Pakistan, the reconstitution at our suggestion 
and recommendation of Al Haramain's board, the arrest of a 
significant number of prominent fundraisers now known to us in 
Saudi Arabia, an ongoing dialogue on additional, specific NGO 
and donor targets, and work towards establishing a framework 
for the sharing of more financial information on a near real-
time basis.
    This last development is critical, Mr. Chairman. Much of 
the evidence in the shadow war is suspect. It is the product of 
interrogation, rewards, betrayals and deceits, but a financial 
record does not lie. It has singular integrity on the war on 
terror, and it is enormously useful. It is useful in helping to 
identify, and locate, and capture bad guys, it is useful in 
mapping out a network of connections between anonymous bankers 
and suicide bombers.
    It is useful in helping to evaluate the credibility and the 
immediacy of a threat, and it has been useful in trying to 
prevent a calamity by starving the enterprise of terror, and it 
is an enterprise. By way of example, the al Qaeda paid a tithe 
of $20 million a year to the Taliban for their safekeeping. But 
if you use the financial records, you might prevent the 
calamity, as long as you can starve the enterprise of terror of 
its fuel, and its fuel is money.
    This brings us back, ironically, to why I came to Treasury 
2.5 years ago. As I told you, I did not know whether my words 
or advocacy could change people's minds. I did, as I told you, 
believe and have confidence that a dollar well-deployed could 
enhance opportunity and therefore diminish antipathy to our 
values and our ways, but I now know, I now know after the 
mission given to me after 9/11, that preventing a dollar from 
being misapplied can be of equal service to the Nation, and 
perhaps is the surest singular weapon we have to make sure that 
the homeland is secure and to let our kids go to schools that 
teach tolerance and respect for people of all faiths.
    Thank you.
    [The prepared statement of Mr. Aufhauser appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much, Mr. Aufhauser.
    Mr. Mefford?

      STATEMENT OF LARRY A. MEFFORD, ASSISTANT DIRECTOR, 
  COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
                        WASHINGTON, D.C.

    Mr. Mefford. Good afternoon, Senator Kyl, Senator Schumer. 
Thank you for inviting me today to testify regarding the state 
of the terrorism threat to the United States. The 
Subcommittee's work in this area is an important part of 
improving the security of our Nation.
    The Federal Bureau of Investigation greatly appreciates 
your leadership and that of your colleagues and other 
committees dealing with the security of our country.
    I would like to briefly discuss, for the Subcommittee 
today, the FBI's assessment of the current threats facing the 
country, with a focus on the radical Sunni extremist threat.
    First, let me emphasize the commitment of the FBI to 
investigating and disrupting terrorist activity, both in this 
country and against U.S. interests overseas. There is no more 
important mission within the FBI today. We are dedicating 
tremendous resources to this effort, and we will continue to do 
so as long as the threat exists.
    Establishing the full extent of al Qaeda's presence in the 
U.S. and preventing another attack is the FBI's top priority. 
Since September 11th of 2001, the FBI has investigated more 
than 4,000 terrorist threats to the U.S., and the number of 
active FBI investigations into potential terrorist activity has 
actually quadrupled.
    Working with our partners and local and State law 
enforcement and within the U.S. intelligence community, we have 
also disrupted terrorist activities in over 35 instances inside 
the United States, since September 11th. These include both 
domestic and international terrorism matters and consist of a 
variety of preventive actions, including arrests, seizure of 
funds, and disruption of terrorist recruiting and training 
efforts, and even, in certain cases, the prevention of actual 
attacks.
    No threat or investigative lead goes unanswered today. At 
FBI headquarters and our field offices around the country and 
through our offices overseas and U.S. embassies, we run every 
lead to ground until we find evidence of terrorist activity 
which we aggressive pursue or determine that the information is 
not substantiated.
    While we have disrupted terrorist plots since 9/11, we 
remain constantly vigilant as a result of the ongoing nature of 
this threat. The greatest danger to our safety and security 
comes not from what we know and can prevent, but actually from 
what we do not know.
    We know this, the al Qaeda terrorist network remains the 
most serious threat to U.S. interests both at home and 
overseas. That network includes groups committed to the 
international jihad movement, and it has demonstrated the 
ability to survive numerous and significant setbacks.
    Since September 11th, we believe that al Qaeda has been 
involved in at least a dozen terrorist attacks around the world 
directed against the U.S. and our allies. This fact requires 
that we continue to work closely with our partners to fight al 
Qaeda and its allies, and all of its forms both here and 
overseas.
    On March 1st of this year, counterterrorism forces in 
Pakistan captured al Qaeda operational commander Khalid Shaikh 
Mohammed, and financier Mustafa Ahmed al-Hawsawi. In early 
2002, another high-ranking al Qaeda operational commander, 
Mohamed Atef, was killed in a U.S. bombing raid in Afghanistan. 
Many more suspected al Qaeda operatives have been arrested in 
the U.S. and abroad and continue to be captured on a weekly 
basis, either by U.S. agencies, military forces, or our allies.
    Despite these strikes against the leadership of al Qaeda 
and their capabilities, that organization remains a very 
potent, highly capable, and extremely dangerous terrorist 
network. Again, the number one terrorist threat to the U.S. 
today in the FBI's estimation. It is adaptive and resilient and 
in my opinion it would be a grave mistake to underestimate its 
reach and potential abilities. The very recent attacks last 
month in Riyadh, Saudi Arabia and Casablanca, Morocco, which we 
believe were either sponsored or inspired by al Qaeda clearly 
demonstrate that network's continued ability to murder and 
injure innocent, unsuspecting victims.
    While large-scale coordinated attacks remain an al Qaeda 
objective, disruptions to the network's command and logistics 
structures during the past 20 months increase the possibility 
that operatives will attempt to carry out smaller scale random 
attacks, as evidenced, for example, by Richard Reid's failed 
attempt to detonate a shoe bomb in December of 2001 aboard that 
transatlantic flight. Such attacks, particularly against softer 
or lightly secured targets may be easier to execute today, less 
likely to require centralized control. We remain vigilant to 
the ability and willingness of individual terrorists acting on 
their own in the name of jihad to carry out random attacks of 
terror wherever and whenever they can.
    We also know that jihadists tend to focus on returning to 
unfinished projects, such as the destruction of the World Trade 
Center and attacks on U.S. Navy vessels. Consequently, today we 
might expect al Qaeda to return to high-profile targets 
previously selected, such as high-profile Government buildings 
either in the U.S. or overseas. While we know that al Qaeda has 
focused on attacks that have economic impact, we believe that 
its goals still include the infliction of mass casualties.
    We do not have information today that clearly identifies 
specific targets, and attacks could conceivably take many 
forms. Consequently, finding and rooting out al Qaeda members 
and their associates and sympathizers once they have entered 
the U.S. is our most serious intelligence and law enforcement 
challenge. This is particularly challenging given that the 
identity of U.S.-based al Qaeda sleeper cells are probably the 
closest held secrets in their networks.
    In addition to focusing on identifying individuals directly 
involved in launching terrorist attacks, we are also very 
concerned about those individuals assisting al Qaeda, providing 
support activities such as assisting and fund-raising, 
recruiting, training, or other logistical responsibilities. 
This remains very important based on the critical nature of 
those types of responsibilities to the operation of terrorist 
networks. We also are concerned about al Qaeda's continued 
intention and efforts to recruit U.S. citizens to support their 
cause.
    In conclusion, the U.S. faces a wide range of international 
terrorist groups and we assess al Qaeda to be the greatest 
threat today. Their potential attacks could be large-scale or 
more smaller and more isolated. Since our understanding of 
their underlying philosophy continues to develop and our 
understanding of their actions and preparations continue to 
evolve, our assessment of the threat continues to evolve also.
    We remain, however, concerned that al Qaeda's intentions to 
launch another major attack inside the U.S. continues. That is 
why we remain focused on detecting and preventing terrorism, 
and we are focused on identifying the sleeper cells in the 
United States if they should exist. We will not stray from that 
purpose and intend to work closely with State and local law 
enforcement and other Federal agencies to continue to enhance 
our capabilities in this regard. We appreciate your guidance 
and support as we carry out this mission.
    In conclusion, I would be happy to answer questions to the 
extent that I am able today.
    [The prepared statement of Mr. Mefford appears as a 
submission for the record.]
    Senator Kyl. Thank you very much, gentlemen. We have about 
10 minutes left in this vote. What I would like to do is take 
about 5 minutes between the two of us, submit some questions to 
both of you in writing and then excuse you, because there will 
be now a significant time lapse here before we to on to the 
next panel. It just would not be fair to keep you around. If 
you want to answer in one-word answers, that would be just 
fine, but do not feel constrained to.
    Let me start with you, Mr. Aufhauser. Just very specific 
questions. Are the Saudis part of the general terrorist threat 
against the United States?
    Mr. Aufhauser. People within Saudi Arabia are, yes.
    Senator Kyl. Is there still a significant al Qaeda 
terrorist threat here in the United States?
    Mr. Aufhauser. Yes.
    Senator Kyl. In fact, Mr. Mefford, how would you 
characterize that overall threat?
    Mr. Mefford. It is difficult for me to place an exact 
number based on the sensitive nature of our ongoing operations, 
but let me character it by saying--
    Senator Kyl. Just generally.
    Mr. Mefford. --that we have ongoing operations directed 
against suspected al Qaeda members and their affiliates in 
about 40 States.
    Senator Kyl. With regard to the trail of money I should 
have asked you, Mr. Aufhauser, specifically about the trail of 
money and whether it leads in some cases to Saudi Arabia.
    Mr. Aufhauser. In many cases it is the epicenter.
    Senator Kyl. Does that trail of money also show money going 
to al Qaeda?
    Mr. Aufhauser. Yes.
    Senator Kyl. Is the money from Saudi Arabia a significant 
source of funding for terrorism generally?
    Mr. Aufhauser. Yes. Principally al Qaeda but many other 
recipients as well.
    Senator Kyl. Have you, incidentally, had direct discussions 
with Saudi officials in regard to the investigations that have 
been conducted?
    Mr. Aufhauser. At the highest levels in Riyadh, yes.
    Senator Kyl. I am going to ask both of you, especially Mr. 
Mefford, I am going to ask you if you have any recommendations 
for any changes in, modifications to, additions to the USA 
Patriot Act, or any of our other laws, in fact with regard to 
both of you. In your investigations and work you have 
undoubtedly worked with these laws. If you have any other 
suggestions or changes that you might want to this suggest to 
us. I am going to put that question to you both in writing and 
just ask you to respond, because we are in a position to at 
least try. Senator Schumer and I were successful in at least 
getting through the Senate a piece of legislation related to 
FISA, and we, I think, both stand ready to try to assist you as 
we can.
    Senator Schumer, do you have anything else for this panel?
    Senator Schumer. No, I will defer to you, Mr. Chairman, 
because we have votes. I want to thank the panel for their good 
work and we will keep pursuing these subjects. Thank you.
    Senator Kyl. Thank you. Again, I really apologize. You had 
to wait, and there is a lot more I would have loved to have 
asked you, but I think I will do that in writing. I would just 
express my sincere appreciation. I cannot thank both of you 
enough. I was going to comment on the fact, each time somebody 
from, particularly the Department of Justice testifies they 
always note the number of situations in which we have disrupted 
terrorist activity, including specific terrorist threats. I 
especially appreciate that testimony.
    It is always important to let the American people know that 
even though they may not see it, there is a great deal of work 
going on behind the scenes that is disrupting these terrorists, 
saving lives, preventing violence. On behalf of the people I 
just want to say thank you to both of you, and all the folks 
that work with you.
    This hearing now will be recessed for approximately 40 
minutes, until we are finished with our work on the floor, and 
then we will come back for our second panel. Thank you.
    [Recess.]
    Senator Kyl. This hearing of the Judiciary Subcommittee on 
Terrorism, Technology will resume. Again, let me apologize both 
to our witnesses and to those who have been patiently waiting 
in the audience for the hearing to resume. It is difficult when 
you schedule a hearing the last day before a recess and a lot 
of business is pending in the Senate, to have an uninterrupted 
hearing. I very much apologize for the inconvenience to any of 
you. I am hoping that other members will come but we are also 
in the markup of the full Judiciary Committee on the asbestos 
bill. I may be needed for a quorum there. So we will get going 
here, see what happens and see if we can do four things at once 
today.
    But I am especially disappointed because our panel, I had 
really hoped that we would have more members here to directly 
hear the testimony, but I plan to ensure that the Committee 
members are all exposed very much to the testimony of the 
panelists here. Dr. Alex Alexiev and Stephen Schwartz are real 
experts in the subject of our hearing today. Let me tell you 
just a little bit about them both and then just get right to 
our testimony.
    Dr. Alex Alexiev is a native of Bulgaria who completed his 
graduate studies at UCLA and worked for nearly two decades as a 
senior analyst in the National Security Division of the RAND 
Corporation. He has also served as a director at Radio Free 
Europe, a pro bono adviser to the first democratically elected 
prime minister of Bulgaria, and an international business 
consultant. Currently, he is a senior fellow at the Center for 
Security Policy in Washington, D.C. where he focuses on issues 
related to the war on terrorism. He is the author of books and 
numerous articles on national security.
    Stephen Schwartz is the director of Islam and Democracy 
Program at the Foundation for the Defense of Democracies, a 
Washington-based think tank concerned with terrorism and 
security issues.\1\ Mr. Schwartz is a journalist, author, and 
recognized expert on the problem of Saudi Wahhabi extremism and 
its infiltration of the global Islamic community. He is the 
author of The Two Faces of Islam: The House of Saud From 
Tradition to Terror, published in 2002 by Doubleday.
---------------------------------------------------------------------------
    \1\ Stephen Schwartz's affiliation with the Foundation for the 
Defense of Democracies ended in August 2003.
---------------------------------------------------------------------------
    Dr. Alexiev, would you like to begin the testimony?

 STATEMENT OF ALEX ALEXIEV, SENIOR FELLOW, CENTER FOR SECURITY 
                    POLICY, WASHINGTON, D.C.

    Mr. Alexiev. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear here and talk about an issue that is of 
the utmost importance. I have submitted a written statement and 
instead of reading it, with your permission I would like to 
briefly summarize the issues in it.
    The basic premise of my statement is that the phenomenon of 
violent Islamic extremism is the key problem we are facing 
today. Al Qaeda, murderous as it is, is but a symptom, in my 
view, of an underlying malignancy which is Islamic extremism 
and the entire edifice, if you will, of extremism that breeds 
terrorism. What I mean by that is even if we are successful to 
defeat al Qaeda totally, another al Qaeda will come by if we do 
not at the same time succeed in destroying the edifice of 
Islamic extremism.
    This huge international infrastructure is sponsored 
ideologically and financially by Wahhabism, and that is to say, 
Saudi Arabia. I do not believe that we are likely to make much 
progress in the war on terrorism, lasting progress, until we 
eliminate this edifice of extremism.
    Let me briefly talk about the ideology that drives 
Wahhabism. Wahhabism pretends to be Islam in its purest form. I 
submit to you, Mr. Chairman, that it is nothing of the kind. It 
is in fact an extremely reactionary, obscure sect whose 
teaching contradicts traditional Islamic doctrine. To that 
extent it is incorrect to refer to it as fundamentalist because 
it in fact transgresses against some of the fundamentals of 
Islamic teaching as given in the Koran. In fact Wahhabis 
teaching contradicts traditional tenets of the Koran to the 
point of falsifying them.
    The give you just one example, Wahhabism teaches and has 
been doing so since the very beginning, since the big 18th 
century, that all Muslims that do not subscribe to Wahhabism 
are in fact apostates and heretics and violence against them is 
not only permissible but in fact obligatory. This continues to 
be the teaching that Wahhabis subscribe to to this day. As a 
result, Wahhabism is not only directed against infidels, non-
Muslims, but is in fact directed against and threatens Muslims 
that do not subscribe to Wahhabism. That is a key point to 
understand.
    As a result, this violent creed has become, in my view, the 
prototype ideology of all Islamic extremist and terrorist 
groups, and that includes those that violently oppose the House 
of Saud, such as bin Laden. In this respect it is very 
important for us to understand that Wahhabi activities are not 
a matter of religion, but in my view a matter of criminal 
sedition and ought to be treated as such.
    It is just as important to understand, as I mentioned, that 
they threaten not only our liberal democratic order but they 
threaten other Muslims such as Sunnis, the Shi'as, the 
different Sufi orders, the Barelvis in South Asia, the Bahai, 
the Ahmadis, et cetera. These other Muslims in fact are 
potential allies in the struggle against this extremist 
phenomenon.
    Now how could one explain the fact that such a hateful 
creed in fact has been able to take over much of the Islamic 
establishment worldwide and become its dominant idiom? The 
short answer, and there are also other things we can talk 
about--the short answer is money; lots of it. In the past 25 
years or so, according to Saudi official information, Saudi 
Arabia has given over $70 billion of what they call development 
aid, which in fact they themselves confirm goes mostly for what 
they call Islamic activities.
    Senator Kyl. Over what period of time?
    Mr. Alexiev. In the last 25 years roughly, from mid 1970's 
to the end of last year; 281 billion Saudi riyals according to 
their official statements. This is nearly $2.5 billion per 
year. This makes it the largest sustained ideological campaign 
in history, in my view. I served as what was called a 
Sovietology for nearly two decades and the best estimates that 
we had on Soviet external propaganda spending was $1 billion a 
year. So you are talking about an absolutely astounding amount 
of money being spent for the specific purpose of promoting, 
preaching Wahhabi hatred.
    They have used this amount of money to take over mosques 
around the world, to establish Wahhabi control of Islamic 
institutions, subsidize extremist madrassas in South Asia and 
elsewhere, control Islamic publishing houses. They currently 
control probably four-fifths of all Islamic publishing houses. 
And spend money, a lot of it, on aggressive proselytizing, 
apart from direct support of terrorism.
    What have they achieved for that money? I would submit to 
you that they have achieved quite a bit. To give you just one 
example, in Pakistan there are roughly 10,000 extremist 
madrassas that are run by Deobandi allies of the Wahhabis, and 
the Deobandis are very similar in their ideology to the 
Wahhabis. They currently teach, according to Pakistan sources, 
between one and 1.7 million children, essentially to hate. They 
do not get much schooling in any subject that is not related to 
Islamic activities.
    It is important to know that of these at least 1 million 
children, 15 percent are foreigners. So it is not just Pakistan 
that is affected by the fact that tens of thousands, hundreds 
of thousands of kids are taught how to hate, and graduate from 
these madrassas without any useful education that could be used 
in the marketplace, but perfectly prepared for a career in 
jihad and extremist activities. 16,000 of them, for instance, 
are Arabs that are taught in these schools.
    As a result, Pakistan is very close to being a 
dysfunctional country. Two of its provinces, the Northwest 
frontier province and the Beluchistan in fact have governments 
that are openly extremist and there is a process of 
Talibanization of these provinces that is extremely disturbing. 
It is, again, not just Pakistan. It is all over. We do not have 
time to discuss that here but let me just mention that in Iraq, 
in the Kurdish areas of Iraq there are now over 40 mosques that 
are starting to be active there and we are going to hear from 
them. This does not augur well for our efforts to build 
democracy in Iraq unless we undercut these activities.
    Now the money that the Saudis are spending are transferred 
to extremist organizations through a network of charities, 
front organizations. Contrary to Saudi official claims, which 
unfortunately quite often are uncritically accepted by many, 
none of them are either private or charitable. They are in fact 
government-controlled, government-sponsored, government-funded 
organizations, the main ones being the World Muslim League, the 
World Assembly of Muslim Youth, the Al Haramain Foundation, and 
the International Islamic Relief Organizations. There are many, 
many others. There are a total of over 250 so-called charitable 
organizations in Saudi Arabia.
    Most of the largest organizations, all four of the ones 
that I just mentioned, have been implicated in the support of 
terrorist activities by U.S. authorities. Let me be just 
mention here one additional factor that indicates that the 
government of Saudi Arabia knows very well what these 
organizations are doing is the fact that they passed a law way 
back in 1993 which prohibited any collection of donations, of 
zakat donations except under state supervision. So the idea 
that you very often hear from the Saudis themselves that 
somehow these are private non-government organization is, in my 
opinion, bogus.
    There is, again, no indication at least to me that Riyadh 
is interested in stemming the flow of these monies to extremist 
organizations. In fact the opposite is still the case. The 
reason that they really cannot do that is because for them to 
come clean on the channels and the amount of money is simply to 
implicate themselves, to implicate a lot of Saudi officials and 
organizations in support of terrorism. While promising that 
they will do something about it, the reality of it is very 
different.
    Let me give you just one quote here from last month, and 
that is from the official Saudi government channel, television 
channel. A Wahhabi cleric who gives a prayer on the state 
channel which deals with the so-called American tyrannical 
alliance and the situation of Iraq. He says, oh, God, destroy 
the aggressive tyrannical alliance. Oh, God, drown its soldiers 
in the seas and destroy them in the deserts. All Wahhabi 
clerics are employees of the Saudi state, and obviously the 
television channel also belongs to the Saudi state. So the idea 
that somehow they do not know what is going on is, again, in my 
view, a bogus one.
    Let me just finish here by saying that the evidence of the 
Saudi Wahhabi sponsorship of extremist networks and activities 
is so overwhelming, in my view, that for us to continue to 
tolerate it guarantees that we are not going to be able to make 
meaningful and lasting progress in the war on terrorism for a 
long time to come.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Alexiev appears as a 
submission for the record.]
    Senator Kyl. Thank you, Mr. Alexiev. Stephen Schwartz.

 STATEMENT OF STEPHEN SCHWARTZ, SENIOR FELLOW, FOUNDATION FOR 
        THE DEFENSE OF DEMOCRACIES, WASHINGTON, D.C.\1\

    Mr. Schwartz. Thank you, Chairman Kyl. Thank you for your 
invitation to appear here today.
---------------------------------------------------------------------------
    \1\ Stephen Schwartz's affiliation with the Foundation for the 
Defense of Democracies ended in August 2003.
---------------------------------------------------------------------------
    I come before this body to describe how adherents to 
Wahhabism, the most extreme, separatist, and violent form of 
Islam and the official sect in the Kingdom of Saudi Arabia have 
come to dominate Islam in the United States.
    Islam is a fairly new participant at the big table of 
American religions. The Muslim community only became a 
significant element in our country's life in the 1980's. Most 
born Muslims, as opposed to those who ``converted''--a term 
Muslims avoid, preferring the term new Muslims--most born 
Muslims have historically been immigrants from Pakistan and 
India who followed traditional, peaceful, mainstream Islam. 
With the growth of the Islamic community in America there was 
no Islamic establishment in the U.S., in contrast with Britain, 
France, and Germany, the main Western countries with 
significant Islamic minorities.
    Historically, traditional scholars have been a buffer 
against extremism in Islam, and for various sociological and 
demographic reasons American Islam lacked a stratum of such 
clerics. The Wahhabi ideological structure in Saudi Arabia 
perceived this as an opportunity to fill a gap, to gain 
dominance over an Islamic community in the West with immense 
potential for political and social influence.
    But the goals of this operation, which was largely 
successful, were multiple. First, to control a significant 
group of Muslim believers.
    Second, to use the Muslim community in the U.S. to pressure 
Government and media in the formulation of policy and in 
perceptions about Islam. This has come to include liaison 
meetings, sensitivity sessions, and other public activities 
with high-level Administration officials, including the FBI 
director, since September 11th.
    Third, to advance the overall Wahhabi agenda of jihad 
against the world, an extremist campaign to impose Wahhabism on 
the global Islamic community as well as to confront the other 
religions. This effort has included the establishment in the 
U.S. of a base for funding, recruitment, and strategic tactical 
support of terror operations in the U.S. and abroad.
    Wahhabi Saudi policy has always been two-faced. That is, at 
the same time as the Wahhabis preach hostility and violence, 
first against non-Wahhabi Muslims, they maintain a policy of 
alliance with Western military powers, Britain, then the U.S. 
and France, to ensure their control over the Arabian Peninsula.
    At the present time, Shi'a and other non-Wahhabi Muslim 
community leaders in this country estimate that 80 percent of 
American mosques are under Wahhabi control. This does not mean 
80 percent of American Muslims support Wahhabism, although the 
main Wahhabi ideological agency in America, the so-called 
Council on American-Islamic Relations, or CAIR, has asserted 
that some 70 percent of American Muslims want, in effect, 
Wahhabi teaching in their mosques. This is a claim we consider 
unfounded.
    Rather, Wahhabi control over mosques means control of 
property, buildings, appointment of imams, training of imams, 
content of preaching, including in the past, faxing of Friday 
sermons from Riyadh, Saudi Arabia, control of literature 
distributed in mosques and mosque bookstores, notices on 
bulletin boards, and organizational solicitation. Similar 
influence extends to prison and military chaplaincies, Islamic 
elementary and secondary schools or academies, college campus 
activity, endowment of academic chairs and programs in Middle 
East studies, and most notoriously, charities ostensibly 
helping Muslims abroad, many of which have been linked to or 
designated as sponsors of terrorism.
    The main organizations that have carried out this campaign 
are the Islamic Society of North America, or ISNA, which 
originated in the Muslim Students Association of the U.S. and 
Canada, MSA, and CAIR. Support activities have been provided by 
the American Muslim Council, AMC, the American Muslim Alliance, 
AMA, and the Muslim American Society, MAS, the Graduate School 
of Islamic and Social Sciences, to which Senator Schumer 
referred as a certifying organization for chaplains, its sister 
body, the International institute of Islam Thought, and a 
number of related groups that I have called the Wahhabi lobby.
    ISNA operates at least 324 mosques in the U.S. through the 
North American Islamic Trust, NAIT. These groups operate as an 
interlocking directorate. Both ISNA and CAIR maintain open and 
close relations with the Saudi government, a unique situation 
in that no other foreign government directly uses religion as a 
cover for its political and influence activities in the U.S.
    For example, notwithstanding support by the American Jewish 
community for the state of Israel, the government of Israel 
does not intervene in synagogue life or the activities of 
rabbinical or related religious bodies in America.
    According to SaudiEmbassy.net, the official web site of the 
Saudi government, CAIR received $250,000 from the Jedda-based 
Islamic Development Bank in 1999 for the purchase of land in 
Washington D.C. to construct a headquarters facility.
    In another very disturbing case, the Islamic Development 
Bank also granted $295,000 to the Masjid Bilal Islamic Center 
in USA for the construction of the Bilal Islamic primary and 
secondary school in California in 1999. Asan Akbar, an American 
Muslim presently charged with the fatal attack on his fellow 
soldiers in Kuwait during the Iraq intervention was affiliated 
with this institution.
    In addition, the previously mentioned official web site of 
the Saudi government reported a donation in 1995 of $4 million 
for the construction of a mosque complex in Los Angeles named 
for Ibn Taymiyyah, a historic Islamic figure considered the 
forerunner of Wahhabism. It should be noted that Ibn Taymiyyah 
is viewed as a marginal extremist ideological personality by 
many traditional Muslims.
    The same web site reported the donation of $6 million, also 
in 1995, for a mosque in Cincinnati, Ohio. The web site stated 
in the year 2000, ``in the United States the Kingdom has 
contributed to the establishment of the Islamic Center in 
Washington, D.C., the Omer Bin Al-Khattab Mosque in western Los 
Angeles, the Los Angeles Islamic Center, the Fresno Mosque in 
California, the Islamic Center in Denver, Colorado, the Islamic 
Center in Harrison, New York City, and the Islamic Center in 
Northern Virginia.''
    How much money in total is involved in this effort? If we 
accept a low figure of control, that is NAIT ownership of 27 
percent of 1,200 mosques stated by CAIR and cited by Mary 
Jacoby and Graham Brink in the St. Petersburg Times, we have 
324 mosques. If we assume a relatively low average of 
expenditures, that is, $500,000 per mosque, we arrive at $162 
million. But given that Saudi official sources show $6 million 
in Cincinnati and $4 million in Los Angeles, we should probably 
raise the average to at least $1 million per mosque, resulting 
in $324 million as a minimum.
    Our view, the view of my program is that the number of 
mosques under Wahhabi control actually totals at least 600 out 
of the official total of 1,200. As noted, Shi'a community 
leaders endorsed the figure of 80 percent under Wahhabi 
control. But we also offer a number of 4,000 to 6,000 mosques 
overall, including small and diverse congregations of many 
kinds.
    A radical critic of Wahhabism, a man who does not love the 
United States very much but has been very candid about the 
facts in this situation, stated some years ago that $25 million 
had been spent on Islamic centers in the U.S. by the Saudi 
authorities. This now clearly seems a low figure. Another anti-
extremist figure estimated Saudi expenses in the U.S. over 30 
years, and including schools and free books as well as mosques, 
near $1 billion.
    It should also be noted that Wahhabi mosques in the U.S. 
work in close coordination with the Muslim World League, MWL, 
and the World Assembly of Muslim Youth, WAMY, Saudi state 
entities identified as participants in the funding of al Qaeda. 
Wahhabi ideological control within Saudi Arabia is based on the 
historic compact of intermarriage dating from the 18th century 
between the family of the sect's originator, Ibn Abd Al-Wahhab 
and the family of the founding ruler, Ibn Saud. To this day 
these families divide governance of the kingdom with the 
descendants of Ibn Abd Al-Wahhab responsible for religious life 
and the Saudi royal family running the state. The two families 
also continue to marry their descendants to one another.
    The supreme religious leader of Saudi Arabia is a member of 
the family of Ibn Abd Al-Wahhab. The state appoints a minister 
of religious affairs who controls such bodies as MWL and WAMY, 
and upon leaving his ministerial post he becomes head of MWL.
    The official Saudi Embassy web site reported exactly 1 year 
ago, on June 26, 2002: ``a delegation of the Muslim World 
League that is on a world tour promoting goodwill arrived in 
New York yesterday and visited the Islamic Center there,'' that 
is, the main Wahhabi mosque there. The same web site later 
reported on July 8, 2002, ``during a visit on Friday evening to 
the headquarters of the Council on American-Islamic Relations, 
CAIR, Secretary-General of the MWL, Dr. Abdullah bin Abdul Mosi 
al-Turki advocated coordination among Muslim organizations in 
the United States.''
    To digress, this would be as if an official of the former 
Soviet government had come to the United States and in a 
meeting with the Communist Party had openly called for 
cooperation between leftist organizations in the United States.
    To return to the quote, ``expressing MWL's readiness to 
offer assistance in the promotion and coordination of Islamic 
works, he announced plans to set up a commission,'' presumably 
of the Saudi government, ``for this purpose. The MWL delegation 
also visited the Islamic Center in Washington, D.C. and was 
briefed on its activities by its director, Dr. Abdullah bin 
Mohammed Fuaj.''
    In a related matter, on June 22nd, 2003, in a letter to the 
New York Post, James Zogby, president of the Arab-American 
Institute, a civic, nonreligious lobbying organization, stated 
that his attendance at a press conference of WAMY in Riyadh, 
Saudi Arabia had been organized by the U.S. Embassy in the 
Kingdom. If this is true, it is extremely alarming. The U.S. 
Embassy should not act as a support of WAMY, which as 
documented by my foundation and the Saudi Institute, a Saudi 
human rights monitoring arm, teaches that Shi'a Muslims, even 
unbelievably enough, the followers of Khomeini, are agents of 
the Jews. Calling Shi'a Muslims, including the Iranians and 
Khomeini, agents of the Jews, is comparable to Nazi claims that 
Jewish business owners were Communists, or the propaganda we 
heard in ex-Yugoslavia claiming that Tito was an agent of the 
Vatican.
    When you hear these things in a country, the aim is to 
derange people, to separate them from reality and to prepare 
for massacres. We believe that issues involving the Saudi Shi'a 
minority in the kingdom have begun to alarm the rulers of the 
kingdom because they look north of their border and they see 
the possibility of a democratic Iraq in formation led by 
Shi'as. And they look northeast and they see the possibility of 
consolidation of a democratic, at least popular sovereignty in 
Iran, another Shi'a country. We are afraid, very afraid they 
are preparing some kind of serious repression, violent 
repression against Shi'as in Saudi Arabia.
    There is clearly a problem of Wahhabi Saudi extremist 
influence in American Islam. The time is now to face the 
problem squarely and find ways to enable and support 
traditional, mainstream America Muslims in taking their 
community back from the extremists, while employing law 
enforcement to interdict the growth of Wahhabism and its 
financial support by the Saudis. If we fail to do this, Wahhabi 
extremism continues to endanger the whole world, Muslims and 
non-Muslims alike.
    Thank you for your attention.
    [The prepared statement of Mr. Schwartz appears as a 
submission for the record.]
    Senator Kyl. Thank you very much for that powerful 
statement, Stephen Schwartz. Let me ask you the first question. 
Exactly how would you characterize the influence of Wahhabi 
ideology in American Islam today? I do not know if you can 
quantify it or you can discuss the quality of it, but how 
influential is it?
    Mr. Schwartz. If I speak in an informal way and a somewhat 
impressionistic way, it is not an easy thing to quantify. But 
we have a situation where I accept the figure that has been put 
forward by the Shi'as leaders. The Shi'a leaders, their 
experience with this has been pretty bitter. They have seen 
their historic mosques taken over, they have seen their own 
people driven out of mosques. They have seen a situation where 
they have essentially been excluded from groups like ISNA and 
so forth.
    This is how it works today. The born Muslim who comes here 
essentially comes here to get away from this stuff. The born 
Muslim, by and large, comes here to enjoy the economic and 
social benefits of becoming an American. They come here from 
places where Islamic extremism has made their lives miserable 
and they come here hoping to get away from it, as I said.
    They get here and what do they find? They find that 
Wahhabism, with Saudi money, dominates American Islam. To them 
this is a gigantic shock, a horrifying shock. A Jordanian 
Muslim once said to me, if somebody had told me in my village 
that I would go to America and go to the mosque and find the 
Wahhabis running it, I would have said, the FBI would never 
allow that.
    So setting up this establishment, setting up an Islamic 
establishment, they have taken control of the community in the 
United States. This is a disincentive to the ordinary, normal 
Muslim, the moderate, traditional mainstream Muslim from acting 
to take their faith back. The guy who comes here from a Muslim 
country does not want to cause problems for his family back 
home. He does not want to stand up in the mosque and fight 
these guys. He does not want his kid to come home and say, the 
other kids in the Islamic academy say you are an agent of the 
Government spying on the Muslims. He does not want to have to 
lose business to a boycott by other Muslims. He does not want 
to have to deal with this nightmare, and they are not going to 
deal with the nightmare. They are not going to act and support 
the cause of democracy unless we help them do that.
    The other point is that the Islamic establishment I have 
described has been extraordinarily successful in capturing the 
microphone, in dictating the discourse. A Bosnian Muslim I know 
said to me, we Bosnians are grateful to America. America saved 
us. But when I turn on my television, I do not see the imam of 
the Bosnian mosque in Chicago, who speaks perfect English and 
is an enemy of Wahhabism and wants to support America, on the 
television speaking for Islam. He says, I see these Wahhabis 
speaking for Islam. They are angry, and they are militant, and 
they are presenting it all as a matter of a vast conspiracy to 
throw them all in camps. They are basically talking as 
jihadists. He says to me, what are we going to do about this? I 
say, the only thing I can tell you is, some of us are trying to 
get your voices into our media.
    My last point is this, many people say, and they say with 
some bitterness, why don't the mainstream Muslims speak out? As 
I've said, a lot of them are intimidated. But a lot of them 
have been ignored. If the media and the Government do not give 
them a hand, do not lift them up, do not enable them to speak 
out, they will not be able to speak out. They will not be 
heard.
    Senator Kyl. Mr. Alexiev, you said some things somewhat 
similar here. Can you tell us in the United States if there are 
particular regions in which the Wahhabis have been more 
successful in furthering their extremist agenda?
    Mr. Alexiev. In the United States or worldwide?
    Senator Kyl. Yes, in the United States.
    Mr. Alexiev. I think Steve is more of an expert on the 
Wahhabi penetration in the U.S., but I do not think there is 
any doubt that the Wahhabis control almost totally the Muslim 
establishment, or Muslim political establishment, if you will. 
Virtually all the organizations that pretend to speak for Islam 
in this country are essentially Wahhabi controlled. There are a 
few others. There is organizations of the Shi'as and of the 
Sufis, but the people that you see being entertained and 
allowed access to the White House, the people that are 
basically the interlocutors of the FBI, all of them virtually 
are Wahhabis. If you look closely at who these people are you 
will find an entire network of organizations who all 
essentially were created beginning in the 1960's as the 
offspring of the so-called Muslim Student Association. They all 
have interlocking directorships, they all have pretty much 
musical chairs of the people that run them. You look at their 
web sites, they all link each other. They are the phenomenon 
that Mr. Schwartz described here, the domination of American 
Islam by--
    Senator Kyl. If you were to try to identify, for example, a 
web site or a writing of Wahhabis in the United States, is that 
possible? Do they use a web site or writings?
    Mr. Alexiev. Yes, they all have web sites. Actually, if you 
spend time looking at what they do and what they represent, it 
is fairly easy to identify them. For instance, the one thing 
that virtually all of them virtually almost incessantly repeat 
is dour which is a proselytism. They constantly talk about 
proselytizing. They constantly talk about what is allowed and 
what is not allowed. They talk about true Islam, correct Islam, 
which is a code word for Wahhabi Islam. They refer to, again as 
I mentioned, to each other's web sites in their links. They 
constantly refer to Saudi institutions, very often the embassy 
or the organizations like Al Haramain. They all offer free 
books and free literature, Wahhabi literature. The reason for 
that is because there is a gigantic printing complex in Medina 
that churns out hundreds of millions of copies of Wahhabi 
propaganda.
    Let me ad here that a Koran is not a Koran. There is a 
thing called a Wahhabi Koran, because they make sure that in 
the interpretation their own line is pursued. So you now have 
that particular printing institution printing Korans in any 
number of language, including Hebrew interestingly enough, many 
in Russian. All of this literature is offered free of charge to 
anybody that wants it because it is propaganda.
    So yes, it is possible to identify these web site fairly 
easy. Not for the uninitiated though, because you will never 
find a Wahhabi web site that will say, this is a Wahhabi web 
site. Wahhabism is a very pejorative word for the Wahhabis 
themselves because from the very beginning non-Wahhabis 
considered Wahhabis, again, an extremist sect. So the term is 
highly pejorative. The Wahhabis themselves never use it. They 
claim that they are the true Islam.
    Senator Kyl. Just for the record, if I could get you to 
give us some information about how you would identify web sites 
that you are talking about here, that would be very helpful, if 
you could.
    Mr. Alexiev. Yes. I would just repeat some of the thing 
that I said. Again, they will not say that this is a Wahhabi 
web sites.
    Senator Kyl. I understand. That is why I was just asking 
you, perhaps for the record we could get some more information 
there.
    Mr. Alexiev. Yes, I can certainly provide a written 
explanation of that point.
    Senator Kyl. That would be very helpful. I am trying, 
because I have now been handed a note that says that we have 
three more roll call votes beginning very soon so I want to try 
to get through as much of this as I can.
    Mr. Schwartz. You asked about regional areas and I will 
call your attention to--I do not have the data here but I am 
sure you recall the incident in the city of Tucson in your own 
State, a city that I once lived in, where there was the murder 
of a dissident Islamic cleric and the individual involved in 
the murder ended up being identified as an al Qaeda agent. So 
even in beautiful, peaceful Arizona, which we think of as 
pretty much a heartland State where there are not going to be 
serious problems involving something so exotic, has actually 
seen bloodshed.
    As far as the web sites go, I hate to correct my esteemed 
colleague but there now is one called the WahhabiMyth.com. They 
say that they are Wahhabis and they defend Wahhabis, by and 
large--also, not to be such an egomaniac, against me and my 
book. This has sprung into existence in the last two or three 
weeks. That is quite an interesting web site because Sufism is 
a tradition of spiritual and peaceful Islam, their argument is 
that the Sufis are the extremists and that Osama bin Laden is a 
Sufi. It is really quite an extraordinary site. But they do not 
have any hesitation to use the would Wahhabi.
    Generally the word Wahhabi is, however, avoided in the same 
way that Communists did not like to be called Communists in 
America. Wahhabis prefer to be called Salafis. It is just the 
same as when Communists called themselves Socialists or 
progressives. People knew what it was. Muslims know what it is. 
They do not want to hear it.
    I will tell you a very interesting web site, www.Dar-Us-
Salam.com. That is one of the purest Wahhabi web sites and it 
has on it an extraordinary--it is a lot of stuff in English--
about women. If you read those, you will really understand what 
is wrong with Saudi Arabia. Go in and read, for example, why 
women are not allowed to drive. That is an extraordinarily 
educational experience.
    There were also many web sites associated with bin Laden 
and his movement which were shut down and then popped up as 
mirror sites elsewhere. Some of them are still operating in 
Britain and Spain and other countries where they have not been 
shut down.
    One other I will mention is called www.as-sahwah.com. That 
is a fantastically useful bin Laden-ite, jihadist web site that 
will tell you things like where to buy 400 videotapes of 
Russian soldiers being beheaded, why there is no reason to have 
fear on the battlefield because as soon as you die as a jihad 
martyr you will immediately get to paradise.
    After September 11th, as I say, many of these sites were 
shut down but they popped up in other places.
    Senator Kyl. Connect this radical form of Islam in the 
United States with the terrorists or terrorism potential here 
in the United States.
    Mr. Schwartz. I do not consider myself an alarmist. I feel 
that Wahhabism is in decline and in many respects has been 
defeated. My view is that the Muslims of the world got up on 
September 12th, 2001 and the vast majority of them said, we did 
not ask for this, we did not sign up for this, we do not 
support this, we did not want us.
    At the same time, it is an unarguable fact that the 
preaching and teaching of extremist ideology creates the 
propensity to act on the ideology. To the extent that Wahhabism 
with its extremely hostile, murderous views of other Muslims, 
Jews, Christians, Hindus, Sikhs, Buddhists, you name it, to the 
extent that that continues to be preached and taught, it 
creates, it encourages in people a propensity to act out 
extremist, terroristic behavior. It also creates a milieu, an 
environment for the collection of funds, the organization of 
conspiracies, and the recruitment of foot soldiers for 
terrorist activities.
    Let me make a slight abstraction here. I am not a 
behaviorist. I do not believe that saying things to people that 
are ugly, evil and terroristic turns them into terrorists. But 
I do believe that creating the environment is a problem, and if 
you simply allow 80 percent of American mosques to be a 
playground for people to spout these ideas--in my book I 
describe, for example, how one of the bin Laden-ite web sites 
described how to raise money for extremists who are interfering 
with the situation in Chechnya. It basically said, go and put 
the notice up on the mosque bulletin board. There was no 
suggestion that you should make sure that the imam in the 
mosque will not object to it.
    The point is, if you create this environment, and above all 
if you create this environment in the prison system, or if you 
create this environment in the military where people are being 
trained in arms and military techniques and so on and so forth, 
you are not creating a behaviorist scenario where just 
preaching alone creates terrorists, but you are allowing the 
maintenance of an environment from which terrorists will 
emerge.
    Senator Kyl. Mr. Alexiev, I want to ask you the same 
question, please.
    Mr. Alexiev. Let me just add here, and it is an important 
aspect of the connection between the Wahhabi takeover of Muslim 
institutions and terrorism. Obviously, when they take over a 
mosque or an institution, they use it for indoctrination 
purposes, and they bring their imams, and it becomes 
essentially a school of that kind of extremism. But it does 
something else which has direct relevance to terrorism, and 
that is this mosque, if run by Wahhabis, they then collect--
there is a cut, the 2.5 percent that every Muslim must donate 
to his mosque. So if the mosque is controlled by the Wahhabis, 
they also control the money.
    So we have the situation where the U.S. Government tells us 
that they have frozen $117 million of terrorist accounts since 
9/11 and yet a single mosque in Brooklyn, we are told by U.S. 
authorities, has donated $20 million to Osama bin Laden. I can 
giver you other examples of mosques in Britain that directly 
subsidize terrorists groups, jihadi groups in Pakistan. So that 
is a direct connection between the takeover of mosques and 
institutions and terrorism.
    Senator Kyl. Mr. Alexiev, do you have any evidence of 
control by people within the Saudi government of the funding of 
charities that at least some of the money which is supplied to 
terrorist organizations?
    Mr. Alexiev. Yes, indeed. As I think I mentioned, all of 
these charities are in fact government controlled, and in fact 
many of them run by high-level officials. There are all kinds 
direct evidence from Saudi sources that I can supply for the 
record that in fact the Saudi government controls these 
institutions.
    Let me just, if I can find it quickly, let me just mention 
this for instance. This is from an official Saudi publication 
which talks about the valuable service that Saudi Arabia has 
provided to the Muslim community. It says here directly, Saudi 
Arabia has either founded or supports the activities of a large 
number of specialized organizations dedicated to serving 
Muslims, such as the Muslim World League, the King Faisal 
Foundation, the World Assembly of Muslim Youth, the 
International Islamic Relief Organization. These are the very 
institutions that I mentioned earlier and all of them, again, 
have been implicated in terrorist activities by U.S. 
authorities.
    So the evidence that they are in fact controlled by the 
Saudi government is very ample and supplied directly by the 
Saudi government itself.
    Senator Kyl. Are either of you familiar--I was watching 
television a couple days ago and there was a reference to a 
directive or a rule, and I do not remember the number but it 
was something like Directive No. 98 or something, with the 
Saudi banks required to collect a certain amount of money for 
charity? I did not know anything about it. I have not been able 
to find out anything about it. Do either of you have any idea 
what I am talking about, the news story?
    Mr. Schwartz. I do not know what the latest one of them is, 
but the collection--Dr. Alexiev has very correctly pointed out, 
the giving of charity is one of the principles that are 
traditionally referred to as the five pillars of Islam. The 
donation of funds, the collection of funds is a gigantic 
industry in Saudi Arabia, so to speak. There are many, many 
continuing decrees and orders of this kind. I can research it 
and came back.
    Senator Kyl. I would appreciate that for the record. So at 
least it is plausible that there would be a rule that banks 
would need to collect a certain amount of money?
    Mr. Schwartz. Banks have been collecting this money all 
along. Banks have been collecting this money since banks were 
established in Saudi Arabia.
    Senator Kyl. But the question is, is it a directive of the 
state itself?
    Mr. Schwartz. Absolutely. The banking system in Saudi 
Arabia is not an entrepreneurial, commercial banking system 
such as we have in the United States. This is another aspect of 
Islamic culture, because there are certain rules in Islam for 
financial transactions. For example, there is a ban on 
interest. There is a whole body of doctrine, law, and practice 
called Islamic banking. The Saudi state, which considers itself 
the guardian of Islam in the kingdom regulates the banks and 
controls numerous banks.
    I was going to make a brief comment that might interest 
you. Dr. Alexiev talked about the Al Haramain Foundation. 
Haramain means the holy places and refers to Mecca and Medina. 
Haramain is a very pernicious international Saudi government-
controlled charity that operated in Bosnia. They were among the 
first organizations that was shut down in Bosnia and in Somalia 
by a coordination action of our Treasury Department and the 
Saudi government.
    Recently we were told by the Saudi government that Haramain 
would no longer operate outside Saudi Arabia, but I have just 
learned today that Haramain still has a fund for its activities 
in the United States. It is still collecting money right now 
for activities in the United States.
    So this is one of the problems with this whole thing. The 
Saudi authorities tell us all these great things they are 
doing, but then when you talk to Saudi subjects as I do every 
day, you find that people who are living in the kingdom realize 
that what is being told to the United States and what is 
actually happening in the kingdom are two very different 
universes.
    Mr. Alexiev. If I may add something to that. There is 
really plenty of evidence that government officials, in fact 
very high-ranking Saudi princes on a regular basis organize 
donation meetings, donation events, if you will, for these very 
organizations that we discussed here. They usually start by 
donating $1 million or $2 million or $3 million themselves, and 
then the invited businessmen and others do the same. That is 
actually very often covered quite extensively in the Saudi 
press. I have myself at least six or seven of these instances 
which document that the Saudi government is behind organizing 
these collection drives for organizations that have been 
implicated in terrorist activities by our Government.
    Senator Kyl. I want to return to something that was said 
before. I may have missed it but I just want to reiterate the 
point. There were different figures of the numbers or 
percentages of mosques in the United States that have had 
funding from Wahhabis. I think the highest number you gave was 
80 percent of the mosques being funded by Wahhabis. Did I hear 
that number correctly?
    Mr. Schwartz. Yes. I am very anxious to say, this is not 
something where we can give a scientific figure. There is not a 
situation where there is a database that we consult. This is 
essentially a pragmatic figure derived from Shi'a and other 
Muslims, their description of the situation as they see it.
    Senator Kyl. It would be important to note, however, that 
in attributing a percentage, whether it is 80 or 60 or whatever 
the number is, that that is not to say that it is 
representative of the percentage of Muslims in the United 
States who adhere to Wahhabi.
    Mr. Schwartz. Absolutely not. Absolutely not. If 80 percent 
of Muslims in the United States were Wahhabis, we would have a 
much worse situation than we have. If it were not for the 
money, as Dr. Alexiev and others, as we have all said, if it 
were not for the money this strain of Islam would be like the 
Christian Identity churches. It would be a crank, fringe, 
disreputable, and ignored phenomenon except for when it broke 
out from time to time. I must say, thanks to Allah, we cannot 
say that 80 percent of American Muslims are Wahhabis under any 
circumstances. The majority of American Muslims, I would say, 
60, 70 percent of American Muslims follow the traditional 
Sunna, or they are Shi'as, or they are Sufis who want to work 
and live and prosper in this country as loyal American 
citizens. They hate terrorism. If they are born Muslims from 
Muslim countries, they came here to escape this.
    Senator Kyl. I appreciate that important qualification. I 
want to make one other as well because it is a point that Chuck 
Schumer made and perhaps is a way for me to end this hearing.
    Over the years, the government of Saudi Arabia has on 
occasion been very helpful to the United States of America. 
There have been certain occasions in which the friendship 
between the two governments has redounded to the benefit of the 
United States in various ways. But today, I agree with Senator 
Schumer that just as other countries around the world have to 
come to grips with certain aspects of their society which 
contribute to the war on terrorism, including the United States 
of America--we have had to tighten up some of our security 
procedures. We have had to pass laws. We have had to change 
some of our institutions like the FBI and others to reorient 
themselves to dealt with this threat in a way much more 
directly than they ever used to do. A lot of changes have had 
to be made in countries around the world.
    But among the countries that have not yet confronted the 
threat from terrorism that in many respects they themselves are 
fostering, Saudi Arabia is that country. For our friends in 
Saudi Arabia, I think a strong message from the United States 
has to be, you have got to help us in this war on terrorism or 
you yourselves are going to be consumed by it, just as it is 
going to consume others in the world.
    So I want to conclude this. If any of you want to comment, 
fine, but I am going to have to go vote here in just a second.
    I think from our witnesses this afternoon we have 
established some basic and important facts about the threat of 
terrorism in the United States, the specific threat from al 
Qaeda, the connection of al Qaeda in Wahhabi, and 
unfortunately, the financing connection between Wahhabi and 
Saudi Arabia. It simply leads to the conclusion that we have 
got to accelerate our efforts to deal with that threat around 
the world as it impacts the United States directly.
    So this Committee will be conducting a series of hearings 
that will further expand on some of specific elements of this, 
the tracing of the money, the mosques, the clerics in the 
services, other ways in which the United States needs to be 
concerned about the way that terrorism is taking hold or could 
take hold in this country. I only hope, Mr. Schwartz, that you 
are right, that perhaps we have seen the high water mark and as 
a result of a lot of exposure the problem is beginning to be 
solved.
    I thank both of you for testifying today, and with that we 
will simply announce that the record will be kept open until 
July 9th and the hearing is concluded.
    [Whereupon, at 5:22 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.] 

[GRAPHIC] [TIFF OMITTED] T1326.001

[GRAPHIC] [TIFF OMITTED] T1326.002

[GRAPHIC] [TIFF OMITTED] T1326.003

[GRAPHIC] [TIFF OMITTED] T1326.004

[GRAPHIC] [TIFF OMITTED] T1326.005

[GRAPHIC] [TIFF OMITTED] T1326.006

[GRAPHIC] [TIFF OMITTED] T1326.007

[GRAPHIC] [TIFF OMITTED] T1326.008

[GRAPHIC] [TIFF OMITTED] T1326.009

[GRAPHIC] [TIFF OMITTED] T1326.010

[GRAPHIC] [TIFF OMITTED] T1326.011

[GRAPHIC] [TIFF OMITTED] T1326.012

[GRAPHIC] [TIFF OMITTED] T1326.013

[GRAPHIC] [TIFF OMITTED] T1326.014

[GRAPHIC] [TIFF OMITTED] T1326.015

[GRAPHIC] [TIFF OMITTED] T1326.016

[GRAPHIC] [TIFF OMITTED] T1326.017

[GRAPHIC] [TIFF OMITTED] T1326.018

[GRAPHIC] [TIFF OMITTED] T1326.019

[GRAPHIC] [TIFF OMITTED] T1326.020

[GRAPHIC] [TIFF OMITTED] T1326.021

[GRAPHIC] [TIFF OMITTED] T1326.022

[GRAPHIC] [TIFF OMITTED] T1326.023

[GRAPHIC] [TIFF OMITTED] T1326.056

[GRAPHIC] [TIFF OMITTED] T1326.057

[GRAPHIC] [TIFF OMITTED] T1326.058

[GRAPHIC] [TIFF OMITTED] T1326.059

[GRAPHIC] [TIFF OMITTED] T1326.060

[GRAPHIC] [TIFF OMITTED] T1326.061

[GRAPHIC] [TIFF OMITTED] T1326.062

[GRAPHIC] [TIFF OMITTED] T1326.063

[GRAPHIC] [TIFF OMITTED] T1326.064

[GRAPHIC] [TIFF OMITTED] T1326.065

[GRAPHIC] [TIFF OMITTED] T1326.024

[GRAPHIC] [TIFF OMITTED] T1326.025

[GRAPHIC] [TIFF OMITTED] T1326.026

[GRAPHIC] [TIFF OMITTED] T1326.027

[GRAPHIC] [TIFF OMITTED] T1326.028

[GRAPHIC] [TIFF OMITTED] T1326.029

[GRAPHIC] [TIFF OMITTED] T1326.030

[GRAPHIC] [TIFF OMITTED] T1326.031

[GRAPHIC] [TIFF OMITTED] T1326.032

[GRAPHIC] [TIFF OMITTED] T1326.033

[GRAPHIC] [TIFF OMITTED] T1326.034

[GRAPHIC] [TIFF OMITTED] T1326.035

[GRAPHIC] [TIFF OMITTED] T1326.036

[GRAPHIC] [TIFF OMITTED] T1326.037

[GRAPHIC] [TIFF OMITTED] T1326.038

[GRAPHIC] [TIFF OMITTED] T1326.039

[GRAPHIC] [TIFF OMITTED] T1326.040

[GRAPHIC] [TIFF OMITTED] T1326.041

[GRAPHIC] [TIFF OMITTED] T1326.042

[GRAPHIC] [TIFF OMITTED] T1326.043

[GRAPHIC] [TIFF OMITTED] T1326.044

[GRAPHIC] [TIFF OMITTED] T1326.045

[GRAPHIC] [TIFF OMITTED] T1326.046

[GRAPHIC] [TIFF OMITTED] T1326.047

[GRAPHIC] [TIFF OMITTED] T1326.048

[GRAPHIC] [TIFF OMITTED] T1326.049

[GRAPHIC] [TIFF OMITTED] T1326.050

[GRAPHIC] [TIFF OMITTED] T1326.051

[GRAPHIC] [TIFF OMITTED] T1326.052

[GRAPHIC] [TIFF OMITTED] T1326.053

[GRAPHIC] [TIFF OMITTED] T1326.054

[GRAPHIC] [TIFF OMITTED] T1326.055


</pre></body></html>
